            FINANCIAL REPORTING OF DLA-OWNED
                BULK PETROLEUM PRODUCTS


Report No. D-2001-126                      May 23, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DLA                   Defense Logistics Agency
DESC                  Defense Energy Support Center
DFAMS                 Defense Fuel Automated Management System
FAS                   Fuel Automated System
FIA                   Financial Inventory Account
NSN                   National Stock Number
                           Office of the Inspector General, DoD
Report No. D-2001-126                                                        May 23, 2001
   (Project No. D2000FJ-0067.007)

                         Financial Reporting of DLA-Owned
                              Bulk Petroleum Products

                                    Executive Summary

Introduction. We performed this audit in support of the Chief Financial Officers Act of
1990, as amended by the Federal Financial Management Act of 1994. This is the fifth in a
series of reports on the financial reporting of the inventory owned by the Defense Logistics
Agency (DLA). Information on the other reports is contained in Appendix A. Bulk
Petroleum Products consisting of aviation fuel, diesel fuel, lube oils, and additives were a
significant part of the inventory that DLA owned at the end of FY 2000. Bulk Petroleum
Products comprised approximately $2.3 billion (24 percent) of the $9.5 billion of inventories
that DLA reported on its FY 2000 financial statements.

Objectives. The overall objective for the audit was to evaluate management assertions
pertaining to existence, completeness, and valuation of DoD inventory accounts, and to
determine whether those accounts are presented fairly on the financial statements. For this
part of the audit we evaluated the existence and completeness of DLA-owned bulk
petroleum products and whether the inventory account is represented fairly on the DLA
financial statements. We also evaluated applicable management controls. See Appendix A
for a complete discussion of scope, methodology, management control program, and prior
audit coverage.

Results. The inventory process used by DLA to capture and report the cost of its
$2.3 billion bulk petroleum product (fuel) inventory for the FY 2000 Financial Statements
was not adequate. DLA did not complete inventories at all of its fuel storage sites, reconcile
inventory balances, process fuel transactions in a timely manner, or account for all financial
transactions related to fuel in the proper accounting period. Approximately $1.4 billion (61
percent) of the $2.3 billion of the bulk petroleum stored at approximately 511 sites was
either not inventoried or was inventoried but not reconciled prior to preparation of the
financial statements. Additionally, inadequate processing and accounting for fuel
transactions caused 6 million gallons of negative inventory to be reported and at least $6.4
million of DLA-owned fuel not to be included on the DLA balance sheet. As a result, until
the above mentioned deficiencies are corrected, the $2.3 billion fuel portion of the DLA
inventory line cannot be relied upon to support the inventory amounts reported in the DLA
Financial Statements. See the Finding section for a discussion of audit results.
Summary of Recommendations. We recommend that the Director, Defense Energy
Support Center conduct and reconcile inventories at every fuel site before the financial
statements are compiled and produced. Any adjustment derived from the reconciliation
should be reflected in the final inventory number. We recommend that the Director,
Defense Energy Support Center develop additional procedures to ensure that fuel site
personnel properly process transactions in a timely manner. We recommend that the
Director, Defense Energy Support Center account for all transactions in the proper
accounting period. Specifically, the subsidiary ledger should be date driven and accept all
late transactions that are not processed timely but occur in the financial accounting period.
We recommend that the Defense Fuel Automated Management System replacement system
be designed to properly account for barge transactions.

Management Comments. The Director, Defense Energy Support Center, nonconcurred
with the finding and partially concurred with each recommendation. The Director stated that
no actions are warranted because the report contained significant misstatement of fact and
that the DLA fuel inventory processes were adequate. The Director indicated that DLA
already had existing controls in place to ensure the fuel sites conduct and reconcile
inventories in a timely manner. The Director stated 91.5 percent of the inventories were
entered in the records by the end of October and 99 percent were entered into the records by
the end of December. The Director also stated that DLA already had procedures in place to
account for all transactions in the proper accounting period. In addition, the Director
indicated the report incorrectly portrays the processing of transactions as it relates to
negative fuel inventory. The Director stated that the Defense Fuel Automated Management
System replacement system would correct other deficiencies outlined in the audit report.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Audit Response. We disagree with the Director, Defense Energy Support Center comments
that the finding contained misstatements of fact and that no actions are needed. The
Director’s comments contain general statements but no specific information documenting
factual errors in the report. We would agree that 91.5 percent of the inventories were
entered into the records by October 31, 2000, and 99.0 percent were entered by
December 31, 2000, because it supports our conclusions that the timeliness of physical
inventories and the reconciliation process were inadequate. The Defense Finance and
Accounting Service said October 5, 2000, was the cutoff period for the fiscal year for fuel
inventories so entries to the records after then would not be in the year end balances. We
did sufficient testing to prove that DLA did not have adequate controls to ensure timely
physical inventory and reconciliation of fuel balances, to ensure transactions were accounted
for in the proper accounting period, and to prevent the reporting of negative inventory
balances in the subsidiary ledger. Our conclusions were based on data collected from 33
fuel sites and information in the Financial Inventory Report. That information showed that
management controls did not ensure that there was timely processing of fuel transactions. A
subsequent review of DESC practices by a contractor hired by DLA noted similar problems
with the processing of fuel transactions. Actions are needed because these management
control weaknesses prevent us from relying on the fuel balances incorporated in the
inventory amounts on the DLA financial statements. We request that the Director, Defense
Energy Support Center provide additional comments on the final report by July 23, 2001.

                                              ii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                            1
     Objectives                                                            2

Finding
     Inventory of Defense Logistics Agency-Owned Bulk Petroleum Products    3

Appendixes
     A. Audit Process                                                      12
         Scope                                                             12
         Methodology                                                       13
         Management Control Program Review                                 14
         Prior Coverage                                                    14
     B. Negative Inventory Balances                                        15
     C. Report Distribution                                                16

Management Comments
     Defense Logistics Agency                                              19
Background
    We performed this audit in support of the Chief Financial Officers Act of 1990, as
    amended by the Federal Financial Management Act of 1994. This report is the
    fifth in a series of reports on the amounts of DLA inventories reported on the
    DoD financial statements. Prior reports discussed chemical suits, tests of dollar
    value accuracy, and unit pricing at the inventory control points in Columbus, OH,
    Richmond, VA, and Philadelphia, PA.

    Bulk petroleum products consist of aviation fuel, diesel fuel, lube oils, and
    additives. Those petroleum products are a part of the Defense Logistics Agency
    (DLA) inventory and are reported as part of the inventory amount reported on the
    DLA financial statements.

    Bulk petroleum products represented about $2.3 billion (24 percent) of the
     $9.5 billion of DLA inventory. The petroleum products were stored at
    approximately 511 Defense Fuel Sites. The 511 fuel sites managed 864 line items
    that were reflected in the DLA Financial Inventory Account (FIA) subsidiary
    ledger.

    Management is responsible for presenting accurate and reliable inventories in
    accordance with generally accepted accounting principles. Underlying the
    financial statements are management assertions on the existence, completeness,
    valuation, ownership, and presentation of inventories. This report focuses on the
    assertions of existence and completeness. Existence deals with whether assets or
    liabilities exist at a given date. Completeness deals with whether all transactions
    and accounts that should be presented in the financial statements are so included.

    Defense fuel site personnel are responsible for maintaining accurate inventory
    records and confirming inventory quantities within the accounting records by
    measuring product levels, which is the most important internal control for fuel
    inventories. Accurate inventory records are essential to achieving DoD goals for
    operating readiness, total asset visibility, financial and budget reliability, and
    operating efficiencies. Accurate inventory records can also help the Defense
    Energy Support Center (DESC) to demonstrate that essential management
    controls are in place to safeguard DoD inventories stored at the fuel sites.

    DLA uses the Defense Fuel Automated Management System (DFAMS) in
    support of their bulk petroleum products management operations. All petroleum
    related transactions flow through the DFAMS system. To help manage fuel
    operations, DLA is working on implementing a new system called the Fuels
    Automated System (FAS). The FAS migratory program was initiated to evolve
    and modernize the existing DFAMS to support the DoD mission requirements.
    The mission requirements include management and accountability of fuel stored
    at installations, a responsibility previously belonging to the Military Services.
    FAS is scheduled to replace DFAMS in September 2003. The implementation

    schedule has been delayed due to numerous design changes and programming
    problems. DLA was scheduled to implement FAS at a few test sites in
    April 2001.
                                       1
Objectives
     The overall objective for the audit was to evaluate management assertions
     pertaining to existence, completeness, and valuation of DoD inventory accounts
     and to determine whether those accounts are presented fairly on the financial
     statements. For this part of the audit we evaluated the existence and completeness
     of DLA-owned bulk petroleum products and whether the inventory account is
     represented fairly and accurately on the DLA financial statements. We also
     evaluated applicable management controls. See Appendix A for a complete
     discussion of the scope, methodology, management control program review and
     prior audit coverage.




                                         2
                    Inventory of Defense Logistics Agency-
                       Owned Bulk Petroleum Products
                    The inventory process used by the Defense Logistics Agency (DLA) to
                    capture and report the cost of its $2.3 billion bulk petroleum product (fuel)
                    inventory for the FY 2000 financial statements was not adequate. DLA
                    did not accomplish the following:

                             •    complete inventories at all of its fuel sites as required,

                             •    use reconciled inventory balances in the preparation of their
                                  financial statements,

                             •    process fuel transactions in a timely manner, or

                             •    account for all financial transactions related to fuel in the
                                  proper accounting period.

                    Approximately $1.4 billion (61 percent) of the $2.3 billion of the bulk
                    petroleum dollar value stored at approximately 511 sites1 was either not
                    inventoried or was inventoried but not reconciled prior to preparation of
                    the financial statements. Additionally, the inadequate processing and
                    accounting for fuel transactions caused 6 million gallons of negative
                    inventory to be reported and at least $6.4 million of DLA-owned fuel not
                    to be included on the DLA balance sheet. As a result, until the
                    deficiencies are corrected, the $2.3 billion fuel portion of the DLA
                    inventory line cannot be relied on to support the inventory amounts in the
                    DLA financial statements.

Completing and Reconciling Inventories
           During FY 2000, DLA partially concurred with an Inspector General, DoD, audit
           recommendation2 to expand its sampling procedures or develop other procedures
           to validate the accuracy of inventory records for fuels. DLA responded to the
           audit by stating that DLA relies on its internal controls and the controls
           established by the organizations that store DLA-owned materiel, but agreed to
           validate the existing procedures to determine whether additional procedures were
           required. However, DLA chose not to use statistical sampling methods to



1
    There were approximately 511 fuel sites, contained in the Financial Inventory Account report, as of
    September 30, 2000. A fuel site is defined as an activity, such as a DFSP, pipeline, contractor-owned
    facility, etc. that holds DLA-owned fuel. The number of fuel sites is subject to change due to the
    continuous capitalization of military bulk petroleum products by DLA.
2
    Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the Dollar Accuracy of the
    Defense Logistics Agency Inventory,” June 1, 2000.

                                                       3
determine the dollar value accuracy of DLA-owned fuel because DLA believed it
had the capability to obtain 100 percent fuel inventories at all fuel sites at year-
end.

Despite those assurances, DLA did not complete all fuel inventories in time for
financial statement reporting and did not use reconciled inventories in preparation
of the FY 2000 DLA Financial Statements. We examined the DLA FIA
subsidiary ledger to determine whether inventories were conducted on time and
reconciled in time to support financial statement preparation. The FIA is the
supporting subsidiary ledger for the FY 2000 DLA Financial Statements.

Completing Inventories. DoD Regulation 4140.1-R, the “DoD Materiel
Management Regulation,” May 20, 1998, and DoD Manual 4140.25-M “DoD
Management of Bulk Petroleum Products, Natural Gas, and Coal,” June 1994,
establishes policy for inventory management records and for devoting the
resources necessary to complete inventories. Those procedures were
implemented by DLA. However, DLA was not ensuring that the inventories were
completed in time for input and preparation of the FY 2000 DLA financial
statements.

Specifically, the September 30, 2000, subsidiary ledger indicated that only 230
(27 percent) of the 864 line item inventories valued at $853 million were
completed and reconciled in time to prepare the FY 2000 DLA Financial
Statements. However, 476 (55 percent) of the 864 line items, valued at
$1.1 billion, were not inventoried by the fiscal year-end cutoff.

We attribute this condition to the lack of timely enforcement of existing
procedures at fuel sites. DLA personnel were not ensuring that the inventories
were completed in time for compilation of financial information used in the
financial statements. Accurate and reliable information cannot be developed
unless the inventories are completed by the end of the reporting period.

Reconciling Inventories. “DoD Financial Management Regulation”, volume
11B, chapter 55 December 1994 states that at least quarterly, line item
accountability records shall be reconciled to balances recorded in the general
ledger inventory accounts. In addition, accounting records should be adjusted to
be in agreement with the results of physical inventories when they are taken.

Although DLA implemented the policy, it was not always followed. There were
158 (18 percent) of the 864 Bulk Petroleum Product line items, valued at
$322 million, that DLA personnel inventoried but did not reconcile to balances in
the general ledger account in time for financial statement reporting.

There were several reasons for the unreconciled inventories. In some instances,
the line items were still being researched for fuel inventory variances at the time
of financial statement cutoff. In other cases, inventory items were not properly
closed out in the inventory system. However, the main reason that the inventories
were not reconciled was because the fuel sites had not processed all of the receipt
and issue transactions in a timely manner.


                                     4
Processing of Transactions
     DLA fuel sites carried National Stock Number (NSN) items with negative product
     balances during FY 2000. We attributed this condition to the untimely processing
     of fuel transactions. Our analysis of the various monthly transactions showed that
     receipts were often not recorded for several days or even weeks after the
     transactions occurred.

     This late recording of transactions created a situation that resulted in more issues
     being recorded than the balance of the product in the inventory system, giving the
     appearance of negative inventory. During FY 2000, 17 fuel sites carried NSNs
     with negative inventory balances for multiple quarters (see Appendix B). This
     indicated that those storage sites were consistently processing transactions in an
     untimely manner.

     An analysis of inventory balances as of September 30, 2000, indicated that 21
     NSNs were carrying a negative balance of six million gallons of bulk petroleum
     product valued at a negative $6.4 million dollars at the end of FY 2000. The
     negative balances were captured in the financial statements. As shown in
     following table, negative balances were common at the end of each quarter for the
     analysis conducted from September 1999 through September 2000.

                         Quarterly Negative Fuel Balances
                                                  Total Dollars      Negative
          Month             Total Gallons
                                               (Acq Cost Adjusted)    NSNs
     September 1999          (3,910,209)         ($2,527,552.90)       15
     December 1999          (10,223,602)          (7,373,611.19)       20
     March 2000              (6,869,578)          (5,944,401.97)       15
     June 2000               (6,653,132)          (5,364,495.07)       28
     September 2000          (6,017,920)          (6,418,255.79)       21


     DLA has been reporting negative inventory balances in the subsidiary ledger
     since 1991. However, DLA has never corrected those problems.

     Negative Inventory Dollar Value. We evaluated negative inventories from the
     DFAMS FIA subsidiary ledger. To determine the causes of the negative
     inventory we examined the records of negative fuel for one month, April 2000.
     We chose this month because it was completed as we began our fieldwork. The
     records indicated negative petroleum balances at 28 different sites. Of the 28
     sites, 20 had negative inventories valued at $6.3 million because of the untimely
     processing of transactions. DESC personnel provided information that showed
     the fuel sites received fuel but did not post the receipts to the DFAMS system in
     the required time. When fuel is issued and postings are made to the subsidiary
     ledger, balances will become negative if the receipts have not been posted to the
     subsidiary ledger, even though fuel is on hand.


                                           5
    At the 20 sites, the fuel records indicated that the true value of their on-hand
    inventory was a positive $6 million at month end. The effect was a difference of
    $12.3 million from the negative $6.3 million amount reported in the DLA April
    trial balance. Although, the $12.3 million difference we noted in the April trial
    balance was not a material amount in relation to the $2.3 billion of fuels, its
    appearance is an indicator of a systemic control weakness.

    The remaining eight sites had negative inventory balances due to the DFAMS
    inability to handle the accounting for barge transactions. A fuel barge is a sea-
    based ship that sails from site to site to deliver a product. They are distinguished
    from tankers, which are land-based trucks that drive between destinations.
    DoD Manual 4140.25-M states that tanker and barge losses and gains are
    calculated at the final discharge point. The DFAMS system was not designed to
    account for barge transactions. As a result, DESC recognizes the receipt by the
    barge at final destination, which causes a negative balance in the inventory figure.
    However, the negative balances are offset by positive balances in the in-transit
    account. DLA is in the process of developing a replacement system for DFAMS
    and needs to ensure that the replacement system corrects this problem.

    Fuel sites that had positive inventory balances were not examined. However, the
    possibility exists that the sites that were carrying positive inventory values were
    also under or overstated due to the lack of internal controls over the processing of
    transactions. Until the controls over the processing of fuel transactions are
    improved, the inventory amounts cannot be relied upon to support the DLA
    financial statements.

Accounting Period
    An objective of accrual based accounting is to ensure that events that change an
    entity’s financial statements are recorded in a period in which the event occurs,
    rather than only in the period in which the event is recorded. When inventory
    records are maintained in a perpetual inventory system, receipts and issues should
    be recorded directly into the inventory system as they occur. The balance of
    inventory at the end of a fiscal year should represent the ending inventory amount.

    Subsidiary Ledgers. A fiscal year-end analysis of the DLA subsidiary ledgers
    supporting the bulk petroleum inventory trial balance, beginning with
    September 30, 1999, showed that DLA did not account for transactions in the
    proper accounting period. The purpose of our analysis was to determine whether
    the subsidiary ledgers were properly cutoff at month and year-end; therefore,
    capturing all transactions for the proper fiscal year. A cutoff is an end date after
    which no additional postings to a ledger are made for a given period.

    The subsidiary ledgers were not properly cut off at year-end. The fiscal year-end
    cutoff dates were October 4, 1999, and October 4, 2000. The year ending
    FY 1999 and FY 2000 bulk petroleum subsidiary ledgers were kept open in order
    to capture all the late year ending transactions. The ledger did not capture all
    FY 2000 transactions because some of the fuel sites contained negative inventory
    values at fiscal year-end, indicating that the transactions had not been completed.
    In addition, no steps were taken to prevent FY 2001 transactions from being
                                          6
    posted to the FY 2000 subsidiary ledger. The subsidiary ledger needs to be left
    open, but must be driven by the date the transaction occurred. This will allow late
    transactions from the current fiscal year to be processed, but avoid processing the
    transactions from the subsequent accounting period.

Conclusion
    The DLA inventory line cannot be relied upon to support the inventory amounts
    reported in the DLA financial statements until the internal control problems
    associated with conducting and reconciling inventories and processing
    transactions in the proper accounting period are corrected. Failure to conduct
    inventories and use reconciled balances prohibited DLA from providing assurance
    to the existence and completeness of the bulk petroleum product subsidiary ledger
    and trial balance. It is imperative for inventory accuracy purposes that all
    inventories are conducted and reconciled, and inventory adjustments made, prior
    to the issuing of the financial statements. DLA needs to enforce procedures that
    require the fuel sites to complete the inventories and perform the necessary
    reconciliations prior to the preparation of the financial statements. Although
    problems exist with the reporting of bulk petroleum transactions and physical
    inventory quantities, these problems can be corrected without any major system
    changes. However, DLA needs to ensure that the new automated system for Bulk
    Petroleum Product reporting addresses the deficiencies. DLA also needs to
    ensure that all transactions are properly processed before the financial statement
    cutoff reporting date.

Management Comments on the Finding and Audit Response
    Management Comments. DLA nonconcurred with the finding and stated that no
    action is warranted in response to the recommendations because the report
    contained significant misstatement of fact, and that the DLA fuel inventory
    processes were adequate. DLA stated the auditors overstated the impact and did
    not believe the auditors visited enough fuel sites to understand the processing of
    fuel transactions. In addition, there was adequate guidance for the personnel
    responsible to perform the inventories, even though the personnel at many of the
    fuel sites are not under the authority of DLA.

    Audit Response. The DLA comments provided no specific example of factual
    errors in the report. We performed sufficient fieldwork to fully understand the
    processing of fuel. We visited or contacted 33 sites during the audit to gain an
    understanding of the inventory procedures and the reasons for untimely
    processing of transactions, and the causes of the negative fuel balances. In
    addition, we analyzed the FIA used to support the reported value of bulk
    petroleum on the FY 2000 DLA financial statements. As indicated in the report,
    the data show that fuel inventories were not completed or reconciled in a timely
    manner and that negative inventory balances have been reported in the subsidiary
    ledger since 1991. Additionally, a subsequent review by a contractor hired by
    DLA to audit the FY 2000 DLA financial statements noted similar issues with the
    processing of fuel transactions and the reporting of negative fuel inventory
    balances.
                                         7
Management Comments. DLA stated that the report does not tell the reader that
operating personnel at many fuel sites are not under their authority and timely
transaction posting depends on the priorities of the Military Departments
operating the sites.

Audit Response. We understand that DLA relies on the Military Departments to
manage the fuel sites. However, DLA is responsible to ensure that the Military
Departments perform inventories and report transactions in a timely manner. If
the Military Departments are not performing the required procedures, DLA
should take actions to ensure the procedures are enforced.

Management Comments. DLA indicated that the auditors statement that 476
(55 percent) of 864 line items, valued at $1.1 billion, were not inventoried by
fiscal year-end cutoff was not correct. DLA stated that 91.5 percent of the
inventories completed by September 30, 2000, were entered into DFAMS by the
end of October 2000 and 99.0 percent were entered into DFAMS before the end
of December 2000. DLA maintains that the monthly FIA report as of October 5,
2000, is not the subsidiary ledger used to report the fuel inventory on the DLA
financial statements.

Audit Response. Our analysis of the FIA report as of October 5, 2000, supports
the conclusion that 476 line items were not inventoried. DFAS provided the
October 5, 2000, FIA as the support for the fuel inventory balance reported on the
FY 2000 DLA Financial Statements. The DLA statement that only 91.5 percent
of the physical inventories were completed by the end of October 2000 and only
99.0 percent were completed by the end of December 2000 further supports our
conclusion that the timeliness of the physical inventories and reconciliation
process for fuel inventories was inadequate.

Management Comments. DLA stated that a material difference did not exist
between the physical inventory count and the book value of inventory reported at
year-end. An adjustment was not required for the DLA financial statements to be
fairly presented.

Audit Response. The purpose of performing physical inventories and reconciling
them is to verify that the accountable records accurately represent the value of on-
hand assets. DoD Regulation 7000.14-R requires that physical inventories be
taken in accordance with the procedures prescribed in DoD Regulation 4140.1-R
and that general ledgers be adjusted for differences between general ledger
balances and the physical count. Based on the results of our audit, this was not
occurring.

Management Comments. DLA stated that the finding concerning the timely
posting of accounting transactions in the proper accounting periods was
incomplete and not factual. DLA stated that it has controls in place to ensure that
accounting transactions are posted in the proper accounting month. DLA
indicated it maintains a file for transaction processing and a file for general ledger
posting in DFAMS. These two files enable posting of transactions in the correct
month because they both contain current accounting month and current
accounting month plus one.

                                      8
Audit Response. The audit identified 20 fuel sites that were not processing
receipt transactions on a timely basis. DLA indicates it has controls in place to
ensure that accounting transactions are posted in the proper accounting period. If
the proper cutoffs and inventory reconciliation processes were in place, DLA
would not have reported negative inventory balances.

Management Comments. DLA stated that the report incorrectly portrayed the
process of transactions as it relates to negative fuel inventory. DLA indicated that
the accounting for fuel barges caused the negative fuel balances.

Audit Response. This report acknowledged that the legacy system was unable to
properly account for fuel in-transit transactions related to fuel barges. However,
the report focused on the 20 fuels sites that reported negative inventory not related
to fuel barge accounting.
Management Comments. DLA stated that the $2.3 billion of fuel was not
materially misstated and does not believe the recommended actions warranted any
consideration. However, DLA would consider any findings and
recommendations addressed by the contractors it hired to audit the DLA balance
sheet accounts.

Audit Response. As noted in management’s response DLA included the fuel
operation in the scope of the DLA contract with Deloitte and Touche to audit the
DLA balance sheet accounts. In the Deloitte and Touche assessment report for
FY 2000, the timeliness of the physical inventories and reconciliation process
were considered inadequate. Deloitte and Touche also noted that if proper cutoffs
and reconciliation were performed, DLA would not report negative inventory
balances.

The audit report addressed material internal control deficiencies related to the
timeliness of inventories and reconciliation for fuel transactions. Although the
fuel data did not indicate a material misstatement of the DLA financial
statements, the timeliness of recording and reconciling transactions prevented us
from being able to rely on the reported DLA fuel inventory. Until management
acknowledges and corrects the internal control deficiencies noted in the report, the
$2.3 billion fuel portion of the DLA inventory line cannot be relied on to support
the inventory amounts in the DLA financial statements.




                                      9
Recommendations, Management Comments and Audit
  Response

We recommend that the Director, Defense Energy Support Center:


      1. Implement procedures to follow up with activities that are regularly
      processing transactions in an untimely manner. Specifically, the procedures
      need to:

            a. ensure the fuel sites conduct and reconcile all inventories at all
      Defense Fuel activities before the financial statements are produced, and;

             b. reflect any adjustment derived from the reconciliation process in
                the final inventory number.

      Management Comments. DLA partially concurred and stated that the existing
      procedures in place are adequate. DLA stated that 99 percent of the inventory
      results were completed by December 31, 2000, and an adjustment was not
      warranted to the financial statements.

      Audit Response. Although DLA partially concurred, we consider the comments
      to be nonresponsive. The audit report noted that a material amount (61 percent)
      of the fuel inventory was either not inventoried or was inventoried but not
      reconciled to the accounting records in a timely manner as of the fiscal year-end.
      The purpose of performing physical inventories and reconciling is to verify that
      the accountable records accurately represent the value of on-hand assets. DoD
      Regulation 7000.14-R requires that physical inventories be taken in accordance
      with the procedures prescribed in DoD Regulation 4140.1-R and that general
      ledgers be adjusted for differences between general ledger balances and physical
      count. The timeliness of the physical inventories and reconciliation process for
      fuel inventories is inadequate. We request that DLA reconsider the comments
      and provide comments to the final report.

      2. Provide additional guidance to the fuel activities on DoD policies for
      processing transactions in timely manner. Specifically, ensure personnel are
      aware of DoD policy regarding the posting of receipts and issues into the
      inventory system.

      Management Comments. DLA partially concurred and stated that the DoD
      policies are adequate and there is no reason to issue additional guidance. DLA
      further stated that it maintains frequent communication with the field and will
      continue to do so as warranted.

      Audit Response. Although DLA partially concurred, we consider the comments
      to be nonresponsive. The audit showed a material amount of fuel was either not
      inventoried or was inventoried but not reconciled to the accounting records in a
      timely manner as of the fiscal year-end. Our analysis of several month-end
      inventories showed on a consistent basis that the inventories were not completed

                                          10
or reconciled in a timely manner. DLA is responsible for ensuring that the
Military Departments perform inventories and report transactions in a timely
manner. Furthermore, if the Military Departments are not performing the
required procedures for maintaining the fuel inventory, DLA should take actions
to notify the appropriate DoD officials. We request that DLA reconsider its
comments and provide comments to the final report.

3. Perform interim procedures to cut off the subsidiary ledger at year-end
and account for all transactions in the proper accounting period.

Management Comments. DLA partially concurred and stated that the existing
cut-off procedures for the current legacy system are adequate.

Audit Response. Although DLA partially concurred, we consider the comments
to be nonresponsive. The audit identified 20 fuel sites not related to the barges
that were reporting negative inventory balances at year-end. In addition, the
negative fuel inventory balances have been reported since FY 1991. If proper
cutoffs and inventory reconciliation processes were in place, the fuel sites would
properly reflect the actual fuel inventory on hand. We believe that DLA needs to
ensure that all transactions are properly processed before the financial statement
cutoff reporting date and correct the systemic problem of reporting negative
inventory balances. We request that DLA reconsider its comments and provide
comments to the final report.

4. Ensure that the Defense Fuel Automated Management System
replacement system properly accounts for the deficiencies outlined in this
report. Specifically, the system should:

      a. be date driven to account for all transactions in the proper
accounting period, and;

     b. properly account for barge transactions in accordance with DoD
Manual 4140.25-M.

Management Comments. DLA partially concurred and stated that the
requirements are known and will be addressed in the replacement system.




                                    11
Appendix A. Audit Process

Scope
    We performed this audit as part of the requirements of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. For this part of the audit, we limited the scope of our review to
    verify the accuracy of bulk petroleum inventory data reported on the DFAMS FIA
    subsidiary ledger.

    Work Performed. We performed the audit at DESC headquarters, DFAS
    Columbus and four of the 511 fuel sites. We analyzed data for 511 sites whose
    total bulk petroleum products were valued at $2.3 billion. We tested the fuel trial
    balance subsidiary ledger for completeness and existence. In addition, we
    performed cutoff analysis on the quarterly and the end of FY 2000 DFAMS FIA
    subsidiary ledgers. We performed site visits to selected activities and performed
    physical inventories to verify the accuracy of the data reported within the FIA.
    To determine the accuracy we compared the quantities we inventoried with the
    activity-reported quantities. We then compared activity-reported quantities with
    those that appear on the FIA report to ensure the accuracy of data flow. In
    addition to the site visits we contacted 20 sites containing negative inventories.
    We obtained an accurate inventory reading at the time the FIA was produced and
    compared the true inventory balance to the negative balance in order to calculate
    the understatement to inventory.

    Limitations to Audit Scope. Our audit was limited to determining accuracy of
    information reported in the DFAMS FIA subsidiary ledger, which feeds the bulk
    petroleum product value to the DLA trial balance. We did not attempt to
    determine the impact that erroneous pricing data or other valuation problems may
    have on the value reported.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate-level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    corporate-level goal, subordinate performance goal, and performance measure.

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting the
    Revolution in Military Affairs, and reengineer the Department to achieve a 21st
    century infrastructure. (01-DoD-02)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)



                                        12
           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                         −DoD-2.5.2)
             on financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and goal.

           Financial Management Functional Area. Objective: Reengineer DoD
           business practices. Goal: Standardize, reduce, clarify, and reissue
           financial and inventory management policies. (FM-4.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial and Inventory Management high-risk areas.



Methodology
    We reviewed Federal accounting standards and DoD and DLA policies and
    procedures for accounting, inventorying, and reporting of bulk petroleum
    products. We also interviewed various DESC, as well as Military Department
    personnel, involved in the accounting, inventorying, and reporting of bulk
    petroleum products. We performed a review of the subsidiary ledger, which
    contains the financial transaction summary for all bulk petroleum NSNs at each
    activity and serves as the source for the DLA bulk petroleum product trial
    balance. We conducted analysis of the subsidiary ledger for completeness and
    existence. In addition, we performed cutoff analysis on the subsidiary ledger. We
    performed site visits to selected activities and performed physical inventories to
    verify the accuracy of the data reported within the FIA. In addition to the site
    visits we contacted 20 sites containing negative inventories. We obtained an
    accurate inventory reading at the time the FIA was produced and compared the
    true inventory balance to the negative balance in order to calculate the
    understatement to inventory.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from the DLA DFAMS. We did not test general and
    application controls in DFAMS. Specifically, we analyzed the gallons and the
    value of petroleum reported within the FIA report.

    Audit Type, Dates, and Standards. We performed our financial-related audit
    from April 2000 through February 2001. Our review was made in accordance
    with auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.



                                        13
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of controls.

     Scope of the Review of the Management Control Program. We reviewed the
     FY 2000 Annual Statements of Assurance issued by DLA to determine whether
     the issues addressed in this report had been reported as material management
     control weaknesses.

     Adequacy of Management Controls. We identified material management
     control weaknesses, as defined by DoD Instruction 5010.40, related to the
     reporting of DLA-owned bulk petroleum products. The details of the
     management control weaknesses are provided in detail in the Finding section of
     this report. All of the recommendations in this report, if implemented, will
     improve the accuracy and reliability of DLA-owned bulk petroleum products. A
     copy of this report will be provided to the senior official responsible for
     management controls at DLA.

     Adequacy of Management’s Self-Evaluation. The FY 2000 DLA Annual
     Statement of Assurance did not identify any material control weakness related to
     the inventorying or reporting of DLA-owned bulk petroleum products.



Prior Coverage
Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-079, “Inventory Valuation at the
     Defense Supply Center Richmond,” March 14, 2001

     Inspector General, DoD, Report No. D-2001-078, “Inventory Valuation at the
     Defense Supply Center Columbus,” March 14, 2001

     Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the
     Dollar Accuracy of the Defense Logistics Agency Inventory,” June 1, 2000

     Inspector General, DOD, Report No. D-2000-086, “Assuring Condition and
     Inventory Accountability of Chemical Protective Suits,” February 25, 2000




                                        14
Appendix B. Negative Inventory Balances
Department of Defense Activity Address Codes with National Stock Numbers Carrying
            Negative Inventory Balances at the end of Several Quarters
  DoDAAC September December                  March            June September  Total
                 1999            1999          2000           2000    2000   Quarters
FP2823                                         Yes             Yes    Yes       3
FP4417           Yes             Yes           Yes             Yes              4
FP4897           Yes                                                  Yes       2
FP5284           Yes             Yes           Yes             Yes              4
FP6031           Yes             Yes                           Yes              3
FP6041           Yes             Yes                                            2
FP6042                           Yes                           Yes              2
FP6151                           Yes                           Yes              2
FP6302                           Yes                           Yes              2
FP6311                                         Yes             Yes              2
FP6432           Yes             Yes           Yes             Yes    Yes       5
M67865                                         Yes                    Yes       2
N00213                           Yes           Yes                              2
N00216           Yes             Yes                          Yes*    Yes       4
UY7031           Yes             Yes                                            2
UY7235           Yes             Yes           Yes             Yes              4
W51HU8                                         Yes             Yes              2
17 DoDAACs         * Indicates 2 negative NSNs in the given month



      The above activities had negative inventory balances occurring or reported at the
      end several quarters. There were 49 other activities that had negative balances in
      only one quarter.




                                          15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Logistics Agency
  Director, Defense Energy Support Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Defense Logistics Agency Comments




                  19
20
21
22
23
24
25
26
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for Auditing,
DoD, prepared this report. Personnel of the Office of the Inspector General, DoD, who contributed
to the report are listed below.

F. Jay Lane
Salvatore D. Guli
James L. Kornides
Amy J. Frontz
Brian L. Henry
Brian M. Stumpo
Stephen G. Wynne
